No. 20-543 and 20-544
IN THE SUPREME COURT OF THE UNITED STATES
JANET L. YELLEN, SECRETARY OF THE TREASURY,
PETITIONER
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL., PETITIONERS
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL PETITIONER, via e-mail and first-class mail, postage
prepaid, this 22nd day of February, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12998 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on February 22, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 22, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0543
YELLEN, JANET L., SECRETARY OF THE
TREASURY
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.

BRADLEY G. BLEDSOE DOWNES
2332 HOWLAND HILL ROAD
CRESCENT CITY, CA 95531
949-500-4092
BDOWNES@ELK-VALLEY.COM
LORI BRUNNER
QUINAULT OFFICE OF THE ATTORNEY
GENERAL
136 CUITAN STREET
TAHOLAH, WA 98587
360-276-8215
LBRUNER@QUINAULT.ORG
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
ERIC DAHLSTROM
ROTHSTEIN DONATELLI LLP
1501 W. FOUNTAINHEAD PARKWAY
SUITE 360
TEMPE,, AZ 85282
EDAHLSTROM@ROTHSTEINLAW.COM

NICOLE E. DUCHENEAUX
1404 FORT CROOK ROAD SOUTH
BELLEVUE, NE 68005
531-466-8792
NDUCHENEAUX@BIGFIRELAW.COM
JENNIFER BEAR EAGLE
PO BOX 1204
PINE RIDGE, SD 57770
605-867-2140
JENNIFERBE@OSTLEGAL.ORG
HYLAND HUNT
DEUTSCH HUNT PLLC
300 NEW JERSEY AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-868-6838
HHUNT@DEUTSCHHUNT.COM
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN
JONATHAN W. KATCHEN
HOLLAND & HART LLP
1029 W. THIRD AVENUE
SUITE 550
ANCHORAGE, AK 99501
JWKATCHEN@HOLLANDHART.COM

NATALIE A. LANDRETH
NATIVE AMERICAN RIGHTS FUND
745 WEST 4TH AVENUE
SUITE 502
ANCHORAGE , AK 99501
907-276-0680
LANDRETH@NARF.ORG
907-276-2466(Fax)
JAMES H. LISTER
BIRCH, HORTON, BITTNER, & CHEROT, P.C.
1100 CONNECTICUT AVE., NW
1100 SUITE 825
WASHINGTON,, DC 20036
JLISTER@DC.BHB.COM
JEFFREY S RASMUSSEN
PATTERSON EARNHART REAL BIRD &
WILSON LLP
357 S. MCCASLIN BOULEVARD
SUITE 200
LOUISVILLE, CO 80027
303-926-5292
JRASMUSSEN@NATIVELAWGROUP.COM
303-926-5293(Fax)
ALEXANDER B. RITCHIE
16 SAN CARLOS AVENUE
PO BOX 40
SAN CARLOS, AZ 85550
928-475-3348
ALEX.RITCHIE@SCAT-NSN.GOV

CHRISTINE V. WILLIAMS
OUTLOOK LAW LLC
1016 WEST 6TH AVENUE
SUITE 306
ANCHORAGE, AK 99501
907-258-2200
CHRISTINEWILLIAMS@OUTLOOKLAW.COM
LAURA WOLFF
ASSISTANT ATTORNEYS GENERAL
1031 WEST FOURTH AVENUE,
STE. 200
ANCHORAGE, AK 99501
907-269-5100
LAURA.WOLFF@ALASKA.GOV

20-0544
ALASKA NATIVE VILLAGE CORP. ASSN. INC., ET
AL.
CONFEDERATED TRIBES, ET AL.

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN
JAMES H. LISTER
BIRCH, HORTON, BITTNER, & CHEROT, P.C.
1100 CONNECTICUT AVE., NW
1100 SUITE 825
WASHINGTON,, DC 20036
JLISTER@DC.BHB.COM
CHRISTINE V. WILLIAMS
OUTLOOK LAW LLC
1016 WEST 6TH AVENUE
SUITE 306
ANCHORAGE, AK 99501
907-258-2200
CHRISTINEWILLIAMS@OUTLOOKLAW.COM

LAURA WOLFF
ASSISTANT ATTORNEYS GENERAL
1031 WEST FOURTH AVENUE,
STE. 200
ANCHORAGE, AK 99501
907-269-5100
LAURA.WOLFF@ALASKA.GOV

